                             Office of the Inspector General

January 5, 1999

Kenneth S. Apfel
Commissioner of Social Security

Acting Inspector General


Performance Measure Review: Evaluation of the Thirteenth Annual Social Security
Customer Satisfaction Survey Data


Attached is a copy of our final report entitled, “Performance Measure Review:
Evaluation of the Thirteenth Annual Social Security Customer Satisfaction Survey Data”
(A-02-97-01004). The objective of this evaluation was to determine whether the Social
Security Administration’s performance data for its overall customer satisfaction, staff
courtesy, and mail clarity were accurate and appropriately measured performance in
these areas.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide them within the
next 60 days. If you wish to discuss the final report, please call me or have your staff
contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at
(410) 965-9700.




                                                James G. Huse, Jr.

Attachment
              I@@C79ÂI@

    TB9ÂCHSP97TIRÂA9H9R5F




SI7C5FÂS97URCTYÂ58GCHCSTR5TCIH




   P9R@IRG5H79ÂG95SUR9ÂR9VC9W(
   9V5FU5TCIHÂI@ÂTB9ÂTBCRT99HTB
 5HHU5FÂSI7C5FÂS97URCTYÂ7USTIG9R
     S5TCS@57TCIHÂSURV9YÂ85T5



   DggÂ'''ÂÂÂÂÂÂÂÂÂÂ5 '%"




'8#.7#6+10
  4'2146
                 E X E C U TI V E S U M M AR Y

OBJECTIVE

The objective of this evaluation was to determine whether the Social Security
Administration’s (SSA) performance measurement data for its overall customer
satisfaction, staff courtesy, and mail clarity were accurate and appropriately measured
performance in these areas.

BACKGROUND

SSA’s Annual Customer Satisfaction Survey has served as the Agency’s gauge of how
well it serves the public since 1984. The enactment of the Government Performance
and Results Act (GPRA), in August 1993, highlighted the importance of the data
collected by the Annual Customer Satisfaction Survey. GPRA calls for each Federal
agency to have and maintain strategic and performance plans with measurable
performance goals and indicators and a means for comparing, verifying, and validating
the data. Three of SSA’s performance goals relate directly to data collected through
the Customer Satisfaction Survey--overall customer satisfaction, staff courtesy, and
clarity of SSA mail.

Beginning in Fiscal Year (FY) 1997, SSA’s Office of Quality Assurance and
Performance Assessment (OQA) took over the task of completing the survey from the
Office of the Inspector General (OIG). OQA selected participants for its Customer
Satisfaction Survey from a universe of beneficiaries who had a significant transaction
on their Social Security file during a 4-day period in FY 1997. Two random samples of
1,500 customers were taken from a universe of approximately 870,000. OQA drew
these two samples to test a change in the satisfaction scale, with one sample using
“excellent” and the other using “very good” as the top rating. Questionnaires were
mailed to the sample and OQA received a response rate of 78 percent.

The overall satisfaction of SSA customers is calculated by combining those who rated
SSA service “good” or “very good.” The satisfaction rating using this scale rose from
79 percent in FY 1996 to 85 percent in FY 1997, thus providing the first statistically
significant improvement in overall satisfaction in 5 years.

After discussions with OQA personnel directly involved in the FY 1997 Customer
Satisfaction Survey, we obtained and reviewed the data gathered by OQA to ascertain
its validity and reliability.




                                            i
RESULTS OF REVIEW

   THE CUSTOMER SATISFACTION SURVEY ACCURATELY MEASURED
    PERFORMANCE IN OVERALL CUSTOMER SATISFACTION, STAFF COURTESY,
    AND MAIL CLARITY FOR THE POPULATION THAT IT REACHED

The Satisfaction Survey Does Not Reach All Customers

   THE PROPORTION OF DISABLED CUSTOMERS IN THE FY 1997 SAMPLE IS
    LESS THAN IN PREVIOUS YEARS

CONCLUSIONS AND RECOMMENDATIONS

We found OQA’s methodology to be effective and that it accurately monitors
performance for the three performance measures selected; however, the Customer
Satisfaction Survey does not reach all of SSA’s customers. Also, the proportion of
disabled customers in the FY 1997 sample is less than in previous years which has
potential impact on the satisfaction rating. We recommend that SSA:

•   Identify and address the populations not currently reached by the Customer
    Satisfaction Survey.

•   Track the effects of the proportion of disabled customers on the overall satisfaction
    rating and determine if disability status is a valid stratification factor if the Integrated
    Market Measurement Strategy (IMMS) implements market segmentation sampling.

AGENCY COMMENTS

The Agency disagrees with our assessment that the newly designed IMMS is limited in
its capacity to fully meet the GPRA’s annual performance reporting requirement. SSA
explains that while some of the data collected through the IMMS will be completed on a
multiple year cycle, surveys of customers who visit field offices or call the 800 number
will be completed throughout each FY. In response to our recommendation to address
the populations not currently reached by the Customer Satisfaction Survey, SSA states
that it will begin to expand the universe of customers surveyed with the Fifteenth
Annual Survey. Additionally, the Agency believes that recently implemented changes
in the sampling selection methodology will provide samples that are more
representative of SSA’s universe of customers, thereby precluding the potential for a
disproportional sample.

OIG RESPONSE

We believe customer satisfaction is a valuable outcome measure of the services SSA
provides. We appreciate SSA’s clarification of the cycle that will be used to measure


                                               ii
customers’ experiences through the IMMS. An IMMS that is amenable to the GPRA
reporting requirements will ensure that decision makers have timely information in
order to monitor customer satisfaction with SSA services.

We are encouraged to know that SSA will modify the sampling methodology to ensure
that responses provided by the customers surveyed are more representative of all of
the Agency’s customers. SSA’s planned modification to select the sample throughout
the year rather than the 4-day period typically used should minimize the potential for
selecting unrepresentative proportions of disabled customers in the annual survey.
Still, we believe it is important to monitor the effect this important subgroup of
customers may have on overall satisfaction. Ensuring that the proportion of disabled
customers and other important subgroups in the sample are similar to their proportion
in the universe will help to produce a consistent and reliable yearly indicator of
customer satisfaction.




                                           iii
                         TAB L E O F C O N TE N TS

                                                                                                              Page

EXECUTIVE SUMMARY ......................................................................................... i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 5

    THE CUSTOMER SATISFACTION SURVEY ACCURATELY
    MEASURED PERFORMANCE IN OVERALL CUSTOMER
    SATISFACTION, STAFF COURTESY, AND MAIL CLARITY FOR THE
    POPULATION THAT IT REACHED .................................................................. 5

    •    The Satisfaction Survey Does Not Reach All Customers ............................ 5

    THE PROPORTION OF DISABLED CUSTOMERS IN FY 1997
    SAMPLE IS LESS THAN IN PREVIOUS YEARS .............................................. 6

CONCLUSIONS AND RECOMMENDATIONS....................................................... 8

APPENDICES
APPENDIX A - Definitions of Acronyms
APPENDIX B - Tests for Significance
APPENDIX C - Test of Explained Variance
APPENDIX D - Agency Comments
APPENDIX E - Major Report Contributors
APPENDIX F - SSA Organizational Chart
                           I N TR O D U C TI O N

OBJECTIVE

The objective of this evaluation was to determine whether SSA’s performance
measurement data for its overall customer satisfaction, staff courtesy, and mail clarity
were accurate and appropriately measured performance in these areas.

BACKGROUND

SSA’s Annual Customer Satisfaction Survey has served as the Agency’s gauge of how
well it serves the public since 1984. The Agency, as well as Congress, has looked to
the findings from this survey for information regarding overall customer satisfaction,
satisfaction by population type, satisfaction with the 800 number, length of waiting time
in field offices, use of appointments, and staff courtesy. Beginning in FY 1997, SSA’s
Office of Program and Integrity Reviews, which has since been renamed the Office of
Quality Assurance and Performance Assessment (OQA), conducted the survey for the
first time. OIG had conducted the previous 10 customer satisfaction surveys.

SSA’s Response to GPRA

The enactment of GPRA, in August 1993, highlighted the importance of the data
collected by the Annual Customer Satisfaction Survey. GPRA calls for each Federal
agency to have and maintain a strategic plan and a performance plan. The strategic
plan must contain a discussion of outcome-related goals and objectives, how the goals
and objectives are to be achieved, and the program evaluations used to establish and
revise the goals and objectives. Likewise, the performance plan must have: objective,
quantifiable, and measurable performance goals and indicators using relevant outputs,
service levels, and outcomes; and a means for comparing, verifying, and validating the
data.

SSA published specific performance measures and goals in its performance plan for
FY 1999. Both the strategic plan and the performance plan contain the five main goals
set forth by the Agency:

   Â Topromote valued, strong, and responsive Social Security programs and
      conduct effective policy development, research, and program evaluation.

    Â To   deliver customer-responsive, world-class service.




                                             1
   !Â To   make SSA program management the best in business, with zero tolerance for
        fraud and abuse.

   "Â To   be an employer that values and invests in each employee.

   #Â To   strengthen public understanding of the Social Security programs.

Under “deliver customer-responsive, world-class service,” SSA established
FY 1998 performance goals for customer satisfaction. The first performance measure
is the percent of the public rating SSA services as “very good” or “good,” with a goal of
85 percent. The second measure is the percent of public “satisfied” or “very satisfied”
with the courteousness of SSA staff, with a goal of 90 percent. The third measure is
the percent of public who are “satisfied” or “very satisfied” with the clarity of SSA mail.
The goal for this measure is 82 percent.

OQA’s Methodology

As in years past, participants in the Customer Satisfaction Survey were selected from
a universe of Social Security beneficiaries who had a significant transaction recorded
on the Master Beneficiary Record or Supplemental Security Record on October 29 th,
   th   st               st
30 , 31 or November 1 , 1996. The sample included Retirement, Survivors and
Disability Insurance and Supplemental Security Income customers who had:

   1.   applied for benefits;
   2.   received a decision on a claim or appeal request;
   3.   received notice that their payment status changed; and/or
   4.   reported a new address or other changes in personal information.

Two random samples of 1,500 customers were taken from a universe of approximately
870,000 customers for whom transactions were recorded for the dates above. OQA
mailed questionnaires to the sample participants and made follow-up contacts with
those who failed to respond. OQA achieved a response rate of 78 percent for each
sample.

The FY 1997 Customer Satisfaction Survey utilized the same methodology as in prior
years with one modification. In the past, only one sample was used. Two samples
were used for OQA’s survey in order to test a change in the satisfaction scale. One of
the samples used an overall satisfaction scale with “very good” as the top rating. The
other sample had an overall satisfaction scale with “excellent” as the top rating in an
effort to use a “world-class” rating scale supporting the Agency’s implementation of
GPRA.




                                             2
OIG’s Test of Satisfaction Scales

OIG previously administered a similar test of overall satisfaction scales used in the
Customer Satisfaction Survey (SSA Client Satisfaction Survey Test of Satisfaction
Scales [A-02-96-02204], issued on October 23, 1996). OIG tested the use of three
different scales - the traditional five point scale with “very good” as the top box (very
good, good, fair, poor, very poor), a four point scale with “excellent” as the top box
(excellent, good, average, poor), and a five point scale with “excellent” as the top box
(excellent, good, average, poor, very poor). The response rates ranged from 72 to
77 percent in the three samples of 300 SSA customers selected. The study found no
statistically significant difference in top box satisfaction ratings among each of the three
samples and the top box rating for the Twelfth Annual Customer Satisfaction Survey.
(See results below.)

       •   Excellent (5 point scale)                    44.6%
       •   Excellent (4 point scale)                    45.3%
       •   Very Good (5 point scale)                    45.9%
       •   Very Good (Customer Satisfaction XII)        46.0%

Because there were no statistically significant differences, OIG determined that the
scale could be changed without jeopardizing the integrity of the longitudinal analysis.
OQA repeated the test using its second sample to ensure the comparability of
longitudinal data in its FY 1997 Customer Satisfaction study.

Findings from OQA’s Customer Satisfaction Survey

The overall satisfaction of SSA customers is calculated by combining the ratings “good”
or “very good.” The overall satisfaction rating using this traditional scale rose from
79 percent in FY 1996 to 85 percent in FY 1997. According to OQA, this is the first
statistically significant improvement in the overall service rating in the last 5 years.
However, the overall satisfaction rating using the tested “excellent” scale in FY 1997,
combining the ratings “excellent” and “good,” was 79 percent. The OQA report stated
that the public’s reaction to the new scale indicates the semantic differences in two
scales clearly affected the ratings. It further stated that the term “very good” does not
seem to convey the same kind of high standard associated with world-class service that
“excellent” does. OQA has not yet committed to the excellent scale.

When questioned about satisfaction with various aspects of field office service,
respondents gave staff courtesy an 84 percent satisfaction rating. FY 1996’s rating
was 85 percent. Similarly, of those who reported receiving some type of mail from SSA,
82 percent were satisfied with the clarity of the written material they received.
According to OQA’s report, this represents a statistically significant improvement over
FY 1996’s rating of 78 percent.




                                             3
SCOPE AND METHODOLOGY

We conducted our evaluation in two phases. First, face-to-face and telephone
discussions were held with OQA personnel responsible for the FY 1997 Customer
Satisfaction Survey. The discussions were held to determine OQA’s methodology,
sampling techniques, and data analysis strategy.

Second, we reviewed the data gathered by OQA for the FY 1997 Customer Satisfaction
Survey. This enabled us to compare OQA data with data from previous OIG studies
and identify similarities and differences in sample demographics and response rates for
groups.

Our review was conducted from September 1997 to March 1998. This evaluation was
performed in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                           4
                  R E S U L TS O F R E V I E W

THE CUSTOMER SATISFACTION SURVEY ACCURATELY MEASURED
PERFORMANCE IN OVERALL CUSTOMER SATISFACTION, STAFF
COURTESY, AND MAIL CLARITY FOR THE POPULATION THAT IT
REACHED

Each percentage level of satisfaction reported by OQA in “The Thirteenth Annual SSA
Customer Satisfaction Survey” was replicated and confirmed by OIG using statistical
software. We obtained the FY 1997 samples drawn by OQA and used statistical
software programs to recreate each statistic. We were able to accurately reproduce
each percentage exactly as reported in the OQA study. These percentages included
the three performance measures extrapolated directly from the annual survey--overall
customer satisfaction, staff courtesy, and mail clarity. We also verified that there were
statistically significant changes in the customer satisfaction and mail clarity ratings
between FY 1996 and FY 1997 (see Appendix B).

The Satisfaction Survey Does Not Reach All Customers

While each number reported in the OQA survey is accurate, it should be noted that the
survey is sent, and always has been sent, only to those selected customers who had a
significant transaction posted to their automated case files during a 4-day period in
FY 1997. Thus, the sample does not include those in the general public who just walk
into a Social Security office or telephone the 800 number seeking general information.
Moreover, it does not measure the satisfaction level of those recipients who apply for a
new or replacement Social Security number card, which accounts for over 16 million
transactions annually.

SSA already recognizes that some populations are missed and is proposing other ways
to reach these populations. SSA hired the Pacific Consulting Group (PCG) to identify
any weaknesses or gaps in its performance measurement and monitoring system.
PCG suggested that SSA use a variety of methodologies to extract service delivery
information. In response to this recommendation, SSA established the IMMS, which
outlines various ideas for more encompassing data collection efforts through the use of
differing methodologies and market segmentation. However, IMMS calls for some
assessments to occur only every few years which would make it difficult to use the
assessment data in annual GPRA reporting.


THE PROPORTION OF DISABLED CUSTOMERS IN FY 1997 SAMPLE
IS LESS THAN IN PREVIOUS YEARS

                                            5
Although initial sampling is not stratified by disability status (disabled vs. nondisabled),
a poststratified analysis by this category is used to detect differences in responses.
Historically, the distribution of disabled vs. nondisabled has been consistent, with a
little over half of those sampled being classified as disabled. However, when
comparing samples as of FY 1993, there is an average 9 percent decrease in disabled
beneficiaries represented in the FY 1997 sample (see Table 1). This decrease is not
repeated in the FY 1998 sample, which reflects a more balanced distribution such as
those found in samples prior to FY 1997.

              Table 1. Sample and Respondent Comparisons: 1993 - 19981
                                         Sample                             Respondents
                                               1                 1
          Year              N      Disabled        Nondisabled        N     Disabled1   Nondisabled
                                                                                             1



     1993 (OIG)           1300         51.5%          48.6%          1038    48.3%         51.7%
     1994 (OIG)           1300         53.1%          46.9%          1005    49.7%         50.3%
     1995 (OIG)           1300         50.8%          49.2%          980     47.1%         52.9%
     1996 (OIG)           1500         56.1%          43.9%          1132     53%          47%
     1997 (OQA)           1500         44.2%          55.8%          1171    38.8%         61.2%
     1998 (OQA)2          3000         58.9%          41.1%          n/a       n/a          n/a
    1-
     Numbers are rounded.
    2-
     OQA’s FY 1998 Customer Satisfaction Survey had not been completed at the time of this report,
    but the sample had been drawn.

We are unsure of what caused the 1997 decrease, but its impact on overall satisfaction
was minimal, even though historically disabled customers report being less satisfied
than nondisabled (see Table 2).1 We also mathematically projected what the overall
satisfaction rate would have been if the proportion of FY 1997 disabled respondents
mirrored the proportion of FY 1996 disabled respondents. There was a minimal drop,
less than 2 percent, in overall satisfaction score (85.4 percent to 83.5 percent).
Additionally, OQA tested for respondent bias and determined that nonrespondents
would answer similarly as respondents. If so, an increased satisfaction rate would also
have been reflected among the disabled nonrespondents.




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
1
  We tested what percent of overall satisfaction was explained by survey year (1996 and 1997) and
health status (disabled and nondisabled). See Appendix C.


                                                       6
                         Table 2. Satisfaction with SSA’s Customer
                                Service by Disability Status1
                          Year                 Disabled             Nondisabled

                      1993 (OIG)                 68%                    86%
                      1994 (OIG)                 68%                    87%
                      1995 (OIG)                 68%                    89%
                      1996 (OIG)                 71%                    89%
                      1997 (OQA)                 77%                    91%
              1-
                   Includes all response categories. Numbers are rounded.

To further determine disability status’ impact on the overall satisfaction rate, it will be
important to monitor the results of the FY 1998 survey. Given the higher proportion of
disabled customers included in the sample, it will be interesting to note how the overall
satisfaction rate differs (increases or decreases) from the FY 1997 survey that included
fewer disabled customers.




                                                  7
 CONCLUSIONS AND RECOMMENDATIONS

We found OQA’s methodology and sampling techniques valid and reliable. SSA
accurately reported overall satisfaction, staff courtesy, and mail clarity for the
populations reached. However, not all types of SSA customers are sampled. Although
SSA’s newly designed IMMS includes methods to sample a wider array of customers,
we believe it is limited in its capacity to fully meet GPRA’s annual performance
reporting requirement, especially since some IMMS assessments will not be conducted
on an annual basis.

Additionally, we noted a unique variation in the FY 1997 survey. The sample included
a decreased proportion of disabled customers when compared to previous years. We
are unsure of why this decrease occurred and the discrepancy has not been repeated
in the already drawn FY 1998 survey sample. Since this underrepresentation has
occurred only once, it is unclear how, if repeated, it would manifest itself over time.

In order to address these issues, we recommend that SSA:

1. Identify and address the populations not currently reached by the Customer
   Satisfaction Survey.

 Â Track the effects of the proportion of disabled customers on the overall satisfaction
   rating and determine if disability status is a valid stratification factor if IMMS
   implements market segmentation sampling.

AGENCY COMMENTS

The Agency disagrees with our conclusion that the newly designed IMMS is limited in
its capacity to fully meet the GPRA’s annual performance reporting requirement. SSA
explains that while some of the data collected through the IMMS will be completed on a
multiple year cycle, surveys of customers who visit field offices or call the 800 number
will be completed throughout each FY. In response to our recommendation to address
the populations not currently reached by the Customer Satisfaction Survey, SSA states
that it will begin to expand the universe of customers surveyed with the Fifteenth
Annual Survey. Additionally, the Agency believes that recently implemented changes
in the sampling selection methodology will provide samples that are more
representative of SSA’s universe of customers, thereby precluding the potential for a
disproportional sample. The full text of SSA’s comments is provided in Appendix D.




                                            8
OIG RESPONSE

We believe customer satisfaction is a valuable outcome measure of the services SSA
provides. We appreciate SSA’s clarification of the cycle that will be used to measure
customers’ experiences through the IMMS. An IMMS that is amenable to the GPRA
reporting requirements will ensure that decision makers have timely information in
order to monitor customer satisfaction with SSA services.

We are encouraged to know that SSA will modify the sampling methodology to ensure
that responses provided by the customers surveyed are more representative of all of
the Agency’s customers. SSA’s planned modification to select the sample throughout
the year rather than the 4-day period typically used should minimize the potential for
selecting unrepresentative proportions of disabled customers in the annual survey.
Still, we believe it is important to monitor the effect this important subgroup of
customers may have on overall satisfaction. Ensuring that the proportion of disabled
customers and other important subgroups in the sample are similar to their proportion
in the universe will help to produce a consistent and reliable yearly indicator of
customer satisfaction.




                                           9
APPENDICES
                                                                5PP9H8CXÂ5



       D E F I N I TI O N S O F AC R O N Y M S

FY     Fiscal Year
GPRA   Government Performance and Results Act
IMMS   Integrated Market Measurement Strategy
OIG    Office of the Inspector General
OQA    Office of Quality Assurance and Performance Assessment
PCG    Pacific Consulting Group
SSA    Social Security Administration
IMMS   Integrated Market Measurement Strategy
                                                                                                             5PP9H8CXÂ6



                    TE S TS F O R S I G N I F I C AN C E

 We used SPSS 8.0 nonparametric tests for two independent samples to test
 statistically significant differences between 1996 and 1997 responses for clarity of
 received written materials and for overall satisfaction. These tests are based on the
 Man-Whitney U and Wilcoxon W. Results for both areas are statistically significant
 (clarity at the .01 level and overall satisfaction at the .03 level, leading us to agree with
 the Office of Quality Assurance and Performance Assessment’s finding of statistical
 difference between each year’s responses [see Tables 1 – 4]).


 Table 1. Variables and Count for Clarity                                            Table 2. Test Statistics for Clarity*
 Year and Code                                          Count                                                     Clarity
 1996* (0) Dissatisfied**                                 716                        Mann-Whitney U               360106.00
 1996 (1) Satisfied                                       130                        Wilcoxon W                   718387.00
 1997* (0) Dissatisfied**                                 104                        Z                               -2.180
 1997 (1) Satisfied                                       779                        Asymp.Sig.(2-tailed)              .029

*1996 Sample (N=1132); 1997 Sample (N=1171)                            *Grouping Variable: YEAR
**Dissatisfied collapsed “Very Dissatisfied or Dissatisfied” categories;
   Satisfied was created by collapsing “Very Satisfied or Satisfied”



                                                                                     Table 4. Test Statistics for Overall
 Table 3. Variables and Count for Overall                                                     Satisfaction*
 Satisfaction
 Year and Code                                          Count                                                     Satisfaction
 1996* (0) Poor**                                          95                        Mann-Whitney U               485254.00
 1996 (1) Good                                            866                        Wilcoxon W                   947495.00
 1997* (0) Poor**                                          70                        Z                               -2.582
 1997 (1) Good                                            973                        Asymp.Sig.(2-tailed)              .010

*1996 Sample (N=1132); 1997 Sample (N=1171)                          *Grouping Variable: YEAR
**Poor collapsed “Very Poor or Poor” categories; Good collapsed
   “Very Good or Good”
                                                                                                         5PP9H8CXÂ7



       TE S T O F E X P L AI N E D V AR I AN C E

We used SPSS 8.0 General Factorial Analysis of Variance, based on a general linear
model, to test what percent (explanation of variance) the factors of survey year and
respondent’s status (disabled/nondisabled) contributed to explaining overall
satisfaction. Since year and status were nominal scale variables, we created dummy
variables to insert into the regression equation.

As shown in Table 2, the R² indicates that only 3.8 percent of the variance in overall
satisfaction is explained by a respondent’s status and survey year. Of the 3.8 percent,
respondent’s status accounts for 3.2 percent and year for .3 percent. These results
lead us to conclude that being either disabled or nondisabled does not add much to
explaining overall satisfaction.

                               Table 1. Test Variables for Overall Satisfaction--
                                        Univariate Analysis of Variance

                               Dummy Variables                                             N*
                                Year 96-97
                                 1997 (0)                                                 1140
                                 1996 (1)                                                 1103
                                Status
                                 Disabled (0)                                            1029
                                 Nondisabled (1)                                         1214
                             *Those responding “Neither” to the overall satisfaction were not
                              included in analysis

                                    Table 2. Test of Between-Subjects Effects*

                        Type III Sum of                                                                       ***Eta
Source                  Squares                       df       Mean Square                      F   Sig.      Squared
Corrected Model                41.318ª                  3          13.773                 29.556    **.000       .038
Intercept                  3670.525                     1        3670.525               7876.819       .000      .779
YEAR                            2.999                   1           2.99                   6.436    **.011       .003
D-NSAT                        34.586                    1          34.586                 74.221    **.000       .032
YEAR*D-NSAT                      .109                   1            .109                   .235      .628       .000
Error                      1043.353                  2239            .466
Total                      4798.000                  2243
Corrected Total            1084.671                  2242
ªR² = .038

*Overall Satisfaction was the Dependent Variable; Year and Status were Fixed
**Significant at p<.02
***Eta Squared – measure of association used with nominal level independent variable
                            5PP9H8CXÂ8



AG E N C Y C O M M E N TS
                                                                             5PP9H8CXÂ9



    M AJ O R R E P O R T C O N TR I B U TO R S

Office of the Inspector General

E. Scott Patterson, Director, Management Audits and Technical Services
Timothy F. Nee, Deputy Director
Tracey K. Rennie, Evaluator-in-Charge
Alan Lang, Auditor
Carolyn Neuwirth, Program Specialist


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-9135. Refer to Common Identification Number
A-02-97-01004.
                                   5PP9H8CXÂ@



S S A O R G AN I Z ATI O N AL C H AR T
